UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1781

Glen Thomas Dotson
Plaintiff - Appellant
v.
Dewayne Hendrix, Warden, FCI-Low, Forrest City
Defendant - Appellee
Appeal from U.S. District Court for the Eastern District of Arkansas - Central
(4:19-CV-00828-JM)
JUDGMENT

Before COLLOTON, GRUENDER, and ERICKSON, Circuit Judges.

The motion to proceed on appeal in forma pauperis filed by Appellant Mr. Glen Thomas
Dotson is granted. This court has reviewed the original file of the United States District Court. It
is ordered by the court that the judgment of the district court is summarily affirmed. See Eighth
Circuit Rule 47A(a).
August 14, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-1781

Page: 1

Date Filed: 08/14/2020 Entry ID: 4945660

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1781
Glen Thomas Dotson
Appellant
v.
DeWayne Hendrix, Warden, FCI-Low, Forrest City
Appellee

. Appeal from U.S. District Court for the Eastern District of Arkansas - Central
(4:19-cv-00828-JM)
ORDER
The petition for rehearing by the panel is denied.
October 20, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals,'Eighth Circuit.
/s/ Michael E. Gans

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1781
Glen Thomas Dotson
Appellant
v.
DeWayne Hendrix, Warden, FCI-Low, Forrest City
Appellee

Appeal from U.S. District Court for the Eastern District of Arkansas - Central
(4:19-cv-00828-JM)
MANDATE
In accordance with the judgment of 08/14/2020, and pursuant to the provisions of Federal
Rule of Appellate Procedure 41(a), the formal mandate is hereby issued in the above-styled
matter.
October 28, 2020

Clerk, U.S. Court of Appeals, Eighth Circuit

Case: 4:19-cv-00828-JM

Document #: 20-0

Date Filed: 03/16/2020

Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
CENTRAL DIVISION
GLEN THOMAS DOTSON
V.

PETITIONER
NO. 4:19-CV-00828-JM-JTR

DEWAYNE HENDRIX,
Warden, FCI-Low, Forrest City

RESPONDENT

ORDER
The Court has reviewed the Recommendation submitted by United States
Magistrate Judge J. Thomas Ray, and the objections filed by Petitioner. After careful
review, including a de novo review of the record, the Recommendation is approved and
adopted in its entirety as this Court’s findings in all respects.
IT IS THEREFORE ORDERED THAT:
1.
2.

This case is DISMISSED WITHOUT PREJUDICE.
It is certified, pursuant to 28 U.S.C. § 1915(a)(3), that an in forma pauperis

appeal from this Order and the accompanying Judgment would not be taken in good faith.
Dated this 16th day of March, 2020.

n qiUCV
UNITED STATES DISTRICT JUDGE

Message-Id:<8501282@ared.uscourts.gov> Subject Activity in Case 4:19-cv-00828-JM Dotson v. USA Order Adopting Report and Recommendations
Content-Type: text/html
This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to this e-mail because the mail box is
unattended.
***NOTE TO PUBLIC ACCESS USERS*** There is no charge for viewing opinions.
U.S. District Court
Eastern District of Arkansas
Notice of Electronic Filing
The following transaction was entered on 3/16/2020 at 10:04 AM CDT and filed on 3/16/2020
Case Name:
Dotson v. USA
Case Number:
4:19-cv-00828- JM
Filer:
Document Number: 20
Docket Text:
ORDER approving and adopting in its entirety [15] Recommendation as this Court's findings in all respects; dismissing this
case without prejudice; and certifying that an in forma pauperis appeal from this Order and the accompanying Judgment would
not be taken in good faith. Signed by Judge James M. Moody Jr. on 3/16/2020. (Ijb)

4:19-cv-00828-JM Notice has been electronically mailed to:
Jamie Goss Dempsey

jamie.denpsey@usdoj.gov, CaseView.ECF@usdoj.gov, erica.archer@usdoj.gov

4:19-cv-00828-JM Notice has been delivered by other means to:
Glen Thomas Dotson
Reg #33121-044
SPRINGFIELD
MEDICAL CENTER/FEDERAL PRISONERS
Inmate Mail/Parcels
Post Office Box 4000
Springfield, MO 65801
The following document(s) are associated with this transaction:

M

Document description:Main Document
Original file name :n/a
Electronic document Stamp:
[STAMP dcec£Stamp_ID=1095794525 [Date=3/16/2020] [FfleNumbei=8501280-0
] [a44ce4136d53018eda665662a9db3d91623be2a2ca4573f70b9817cca3al bc22e02
f04a9246402db02238edd367d8e51e2f622dabdc5bf8bad502acbedflae96]] -

Case: 4:19-cv-00828-JM

Document #: 21-0

Date Filed: 03/16/2020

Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
CENTRAL DIVISION
GLEN THOMAS DOTSON
V.

PETITIONER
NO. 4:19-CV-00828-JM-JTR

DEWAYNE HENDRIX,
Warden, FCI-Low, Forrest City

RESPONDENT

JUDGMENT
Consistent with the Order entered separately today, this case is DISMISSED
WITHOUT PREJUDICE. All relief sought is denied, and the case is closed.
Dated this 16th day of March, 2020.

Q QftXJflV
UNPfEDSTATES DISTRICT JUDGE

Message-Id:<8501299@ared.uscourts.gov> SubjectiActivity in Case 4:19-cv-00828-JM Dotson v. USA Judgment Content-Type: text/html
This is an automatic e-mail message generated by the CM/ECFsystem. Please DO NOT RESPOND to this e-mail because the mail box is
unattended.
***NOTE TO PUBLIC ACCESS USERS*** There is no charge for viewing opinions.
U.S. District Court
Eastern District of Arkansas
Notice of Electronic Filing
The following transaction was entered on 3/16/2020 at 10:07 AM CDT and filed on 3/16/2020
Case Name:
Dotson v. USA
Case Number:
4:19-cv-00828-.TM
Filer:
WARNING: CASE CLOSED on 03/16/2020
Document Number: 21
Docket Text:
JUDGMENT: Consistent with [20] Order entered separately today, this case is dismissed without prejudice. All relief sought is
denied, and the case is closed. Signed by Judge James M. Moody Jr. on 3/16/2020. (Ijb)

4:19-cv-00828-JM Notice has been electronically mailed to:
Jamie Goss Dempsey

jamie.denpsey@usdoj.gov, CaseView.ECF@usdoj.gov, erica.archer@usdoj.gov

4:19-cv-00828-JM Notice has been delivered by other means to:
Glen Thomas Dotson
Reg #33121-044
SPRINGFIELD
MEDICAL CENTER/FEDERAL PRISONERS
Inmate Mail/Parcels
Post Office Box 4000
Springfield, MO 65801
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename :n/a
Electronic document Stamp:
-~~r-STAMP dcecfitamn ID=1095794525 [Date=3/16/2020] [FileNumber=8501297-0
.] [82ede33355d86951e913976c99a66706b3cce7dd58a8052a32ead03a9611b972
81104a8ac9de4b92035c4488b56a73b38i69af6678b2b3c5a98164c42eb6]] ,

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
ST. LOUIS, MISSOURI

SEP 2 1 2920.
MICHAEL CANS
CLERK OF COURT

Glen Thomas Dotson
Petitioner

)
)
)

V.

)

No: 4:19-cv-00828JM
20-1781

)

Dewayne Hendrix, Warden
Respondent
PETITIONER'S MOTION FOR REHEARING/MODIFICATION
The petitioner, Glen Thomas Dotson, "Dotson" has become
a victim of difficult circumstances that are a result of his
legal ineptitude. Dotson is a layman, uneducated in law or
jurisprudence. He had not been financially able to retain an
attorney and therefore fell prey to charlatan^ who profess
a jailhouse knowledge of law but who, in reality, only waste
judicial resources while bleeding their victims of foodstuffs
from the prison commissary.
The serious, substantial issues in the case have not been
raised and have, apparently, been overlooked by those whom
Dotson trusted to plead for his rightful liberty.
■*-

Dotson has steadfastly protested his actual innocence while
others have pled meritless issues. That led to the 28 U.S.C.2241
filing upon which this case is before the court.
Pursuant to FRAP 40, this court will retain jurisdiction
of 20-1781. The legal circumstances are unorthodox, but in the
pursuit of justice the court is requested to consider the
substantive facts and information that ought to have been
presented to the court long before now.
RECEIVED

SEP 2 I 2020
Appellate Case: 20-1781

Page: 1

0) Date Filed: 09/21/2020 Enlllff

In order to put the following matter before the court,
Dotson invokes the authority Gongress has authorized to the
Supreme Court and all courts of appellate jurisdiction under
28 U.S.C. 2106.
"The Supreme Court or any other court of appellate
jurisdiction may affirm, modify, vacate, set aside, or
reverse any judgement, decree, or order of a court
lawfully brought before it for review, and such further
proceedings to be had as may be just under the
circumstances." 28 U.S.C. 2106.
"Under 28 U.S.C. 2106 the court of appeals has full
power to go beyond the relief sought." Forman V. United
States, 361U.S.416, 425, 80s .c7.481, ^ L
"See 28 U.S.C. 2106 (Granting appellate courts the power
to "Require such further proceedings to be had as may
be just under the circumstances")." Sciaroni V. Consumer
(in Re Target Corp. Customer Data Sec. Breach Litig),
847F.3d 608, 616 (8th Cir.2016).
The Eighth Circuit can decide this case itself and needs
not remand it to the district court.
"Further, "[T]he Supreme Court or any other court of
appellate jurisdiction may affirm, modify, vacate, set
aside or reverse any judgement, decree, or order of a
court lawfully brought before it for review." 28 U.S.C.
2016. A remand to the district court is unnecessary when
when we can "correct the error ourselves." United States
V. Anobah, 734 F.3d 733,739 (7th Cir. 2013), See also
United States V. Noble, 179 F.Appx 400,401(8th Cir.2006)
(Per Curiam.(modifying written judgement without remand)."

Appellate Case: 20-1781

Page: 2

te Filed: 09/21/2020 Entry ID: 4957758

United States V. Henderson, 902 F.3d 822,828,829(8th Cir.
2018).
Thus this court may dispense justice as it finds necessary.
The Knowing Use of False Testimony
Gerald Cox was a former state representative (TR-U, 91:79). He supported a bill to tighten requirements for becoming
a bondsman in Missouri. (TR-II, 91:25-92:6). He testified that
Lee Jackson (Virgil Lee Jackson) threatened to kill him.(TRIX, 94:1-25).
Cox .was acquainted with Dotson. (TR-II, 104:4-5). He identified
Dotson in the courtroom, (TR-II,104:2-3), but they did not
socialize nor were they friends. (TR-II, 104:6-8). Cox testified
that Dotson was at association meetings and he was in the company
of Virgil Lee Jackson. (TR-II, 104:11-15). Dotson was never
to the home or office of Cox. (TR-II, 105:24-TR106:3). Dotson
never threatened Cox. (TR-II,106:24-TR-II,107:10).
Gregory Stump worked for Dotson as a bounty hunter. (TRIV,107:4-16). He testified that he accompanied Dotson about
10 times. (TR-IV,108;24^TR-IV,109:3).
Stump purchased the handgun from his boss and friend, Pat
Dannegger. (TR-IV,104:1-22) Dannegger wanted the gun back if
Stump "was to get rid of it.*' (TR-IV, 104:25-TR-IV, 105:4)
Stump stated that Dotson telephoned him on a Friday and
he, Dotson, asked Stump if he "had an untraceable gun, a throw
away" for his boy at the house. (TR-IV,118:14-19). He testified
that he met Dotson in a Wal-mart parking lot in Wentzville,
Missouri. "First" Dotson asked him if he was wearing a wire.
(TR-IV,122:23-25)

Appellate Case: 20-1781

Page: 3

te Filed: 09/21/2020 Entry ID: 4957758

He testified that Dotson’s home was burglarized and all
his guns had been taken.(TR-IV,120:19-TR-IV,121:18); but Stump
testified, "a day or two later”, Dotson asked him to go deer
hunting with him. (TR-IV,121:9-15)
Initially, Stump told agent Heitzler that he bought the
gun, from a blind, deadman named Mark Listner. (TR-IV,141:17TR-IV, 142:11)(TR-IV,156:1-9)(TR-IV,159:24-TR-IV,160:4)
The Brady Material, Government Reports Tripped-up Stump.
By Mr. Jenkins: (Recross Examination)
Q. lam going to ask you sir, in the reports that you have seen
that have'been marked by Mr. Hoag, is there one thing in any
of the reports about the gun, Mr. Dotson saying this gun was
for his son?
A. Is there anything in the reports that says that? Not that
I’m aware of.
Q. When did you first remember that?
A. That he wanted it for his son?
Q. Right.
A. That’s what he told me on friday, that he called me.
Q. I understand that. Is your memory better today than it was
in 2006 when you were interviewed? There is nothing about it
in here, sir.
A. I might have forgot to tell them about it. I don’t know.
(TR-IV,161:10-24)
Stump admitted he lied about where he got the gun.
Q. Why did you lie?
A. Iwas trying to protect my friend, Pat Dannegger.
(TR-IV,160:8-9).

Appellate Case: 20-1781

Page: 4 O^ate Filed: 09/21/2020 Entry ID: 4957758

Gregory Stump did not hesitate to falsely blame a blind,
dead individual to satisfy his own fear of threat; neither did
his conscience prevent him from falsely accusing Dotson.
Gregory Stump lied and told the jury that Dotson appeared
before the grand jury, and upon exiting he told Stump: " I didn't
tell them a thing." (TR-IV,126:4-5) Dotson never appeared before
the grand jury. To compound the unfairness of Stump's egregious
lie to the jury, the prosecutor quickly defended Stump and also
but I know he did testify."
lied to the court by stating: "
(TR-IV,127:4-5)
* • ♦

Q. Okay, now did you ever have occasion then to run into Mr.
Dotson in the courthouse?
A. Yes.
Q. When was that approximately?
A. That was when I had to testify in front of the grand jury.
Q. All right. And when you saw him, What if anything did the
defendant say to you?
A. The first time he looked at me, He asked what I was doing
here.
Q. Okay.
A. And then the second time was when he come out from the grand
jury and he looked at me and he said I didn't tell them a thing.
Q. All right.
(TR-IV, 125:17-TR-IV,126:6)
Defense counsel asked for a mistrial. (TR-IV,126:16-17)
He complained to the court that: "it's a direct comment by this
witness as to my client taking the fifth before the grand jury"
(TR-IV,126:24-TR-IV,127:1). Once more, what Stump testified
to is not contained in any of "his" reports (TR-IV,126:14)

Appellate Case: 20-1781

Page: 5

Oojte Filed: 09/21/2020 Entry ID: 4957758

The outright lie by the witness, Gregory Stump, was serious
and prejudicial. Prosecutor Hoag made that point, arguing:
"it is a witness that he attempted to intimidate, and
I think it is consciousness of guilt and itis admissible
for that."(TR-IV,126:19-21)(See Also,TR-IV,127:12-13)
Mr.Hoag was, or should have been, aware of who was and who
was not summoned to testify before the grand jury. Giglio V.
United States, 405U.S.150, 154,92s.c7.763, 3lLEd2d 104 (1972)
It is the government attorney who questions witnesses before
the grand jury in quest of an indictment. He is the only attorney
present, Rule6(d)(l), Federal Rules of Criminal Procedure.
Prosecutor Hoad misled the court:
Mr. Hoag: No. it's not, it's not. "I didn't tell them
a thing" is consciousness of guilt. "I didn't testify",
That is absolutely true I would say that, but I know
he did testify. (TR-IV, 127:12-15)
That statement to the judge, " • * • but I know he did testify",
was absolutely untrue and the prosecutor knew .it was false because
Dotson did not appear before the grand jury, He was not summoned
(AFF. 1,2,5). Mr. Hoag assured the court that he personally
knew Dotson testified; that was not true.
This court can determine the truth,
"After all. the quest of this court shouild be a search
for the truth, not a search for error." Barham V.Reliance
Std. Life Ins. Co., 44lF.3d 581, 585 (8th Cir. 2005)
"...The United States attorney is "the representative
not of an ordinary party to a controversy, of a
sovereignty whose obligation to govern impartially is
as compelling as its obligation to govern at all; and

Appellate Case: 20-1781

Page: 6

^ Filed: 09/21/2020 Entry ID: 4957758

whose interest, therefore, in a criminal prosecution is
not that it shall win a case, but that justice shall be
done." Berger V. United States, 295U.S.78, 88, 79L,Ed
1314,55 S.c7.629(1935)." Strlckler V. Greene, 527U.S.263,
281,144L.Ed.2d 286,119 S.c7, 1936 (1999).
"These cases together with earlier cases condemning the
the knowing use of perjured testimony, illustrate the
special role played by the american prosecutor in the
search for truth in criminal trial." Strickler AT527U.S.281
That Dotson did not appear before the grand jury can be
ascertained from the grand jury records and from the records
of the U.S. attorney. See (AFF. 1,2,5 Doc. 22, 4/8/20) The
prosecutor must know that the witnesses available to him. He
must know that to assemble his case. He must be familar with
their testimony before he calls them to be his witness.Mr. Hoag s
statement that he knew Dotson testified was a lie.

Appellate Case: 20-1781

Page: 7

Filed: 09/21/2020 Entry ID: 4957758

PROOF OF SERVICE
This is to declare under pain of perjury, pursuant to 18 USC 1746,
that I have mailed the original of my Petitioner's Motion for Rehearing/
Modification, to the Clerk of the Eighth Circuit Court of Appeals on this
day of September 2020, with a request that the send copies of that
motion to the Respondent, DEWAYNE HENDRIX, WARDEN, and to AUSA HOAG, as I
am under quarantine and unable to make copies. I have submitted my motion
by placing it in the U.S. Mail at the Medical Center for Federal Prisoners,
Springfield, MO, properly addressed with prepaid postage affixed thereto.

Date:

,t-rJ

SejtH'i / y i&Qpi Q

Glen Thomas Dotson

Glen Thomas Dotson
33124-044,
Medical Center for Federal Prisoners
P.0 Box 4000
Springfield, MO 65801-4000

Appellate Case: 20-1781

Page: 13

ate Filed: 09/21/2020 Entry ID: 4957758

Case: 4:19-cv-00828-JM

Document #: 22-0

Date Filed: 04/08/2020

Page 2 of 17

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

Glen Thomas Dotson

Petitioner

Reg. I 33121-044

NO: 4:19-cv-00828JM/JTR
v.
Dewayne Hendrix, Warden
PCI Forrest City

Respondent

PETITIONER'S MOTION FOR A CERTIFICATE OF APPEALABILITY
JURISDICTION
Jurisdiction is found pursuant to rule 22(b)(1), 28 USC 2255; 28 USC
2253(2)(a); the Due Process Clause of the Fifth Amendment to the Constitution.
Now comes the Petitioner, pro se, a layman, uneducated in law or juris­
prudence who states that initially, one Virgil Lee Jackson was arrested on
10/25/2005 on a Federal complaint, Doc. #6. Jackson was indicted on 10/27/2005,
Doc. #7. Seven months later, on 05/25/2006, a superseding indictment was returned
that named Jackson and the Petitioner, Glen Thomas Dotson as defendants. The
indictment was sealed pending Petitioner's arrest. Petitioner was arrested on
06/01/2006. On 11/13/2006, Petitioner was released on $50,000 cash bond. On
08/23/2007, another superseding indictment, Doc. #208, was returned. The
Petitioner was named as the sole defendant. The indictment included two counts.
The Petitioner went to trial before a jury on May 08, 2008. Virgil Lee
Jackson withdrew his Not Guilty plea and plead Guilty As Charged. The Petitioner,
however, stood trial alone and was tried on the two counts of the two-count
superseding indictment, Doc. #208, of 08/23/2007.

(1)

Case: 4:19-cv-00828-JM

Document #: 22-0

Date Filed: 04/08/2020 - Page 3 of 17

Judge Henry E. Autrey, District Court for the Eastern District of Missouri,
Eastern Division, sentenced the Petitioner to 120 months incarceration on each of
two counts of which he was found Guilty. The sentences were ordered to be served
Consecutively for an aggregate of 240 months imprisonment. Petitioner was further
sentenced to two-years supervised release and ordered to pay a $200 special
assessment fee. The judgment signed pursuant to that sentence was erroneously
drawn as convictions pursuant to 18 DSC 922(g)(1) and 18 DSC 924(e)(1).
Almost nine-years later, Judge Autrey, amended the judgment, sua sponte,
and the corrected the charges to agree with the jury verdict wherein he was found
guilty of 18 DSC 922(d)(1), punishable pursuant to 18 DSC 924(a)(2).
The Petitioner did file a direct appeal, Dnited States v. Dotson, 570 F.3dl067
(8th Cir. 2009). The Court affined July 7, 2009.
The Petitioner was not financially able to retain private counsel and was,
therefore, forced to turn to "Jailhouse Lawyers" for assistance; who, in most
Instances, like the Petitioner himself, are uneducated in law or in jurisprudence.
Thus, at the encouragement of those legal assistants, Petitioner launched a series
of attacks on his conviction. Had an attorney reviewed this case initially, the
Petitioner would not be before the court now to seek a certificate of appealability.
Most recently the Petitioner filed a motion pursuant to 28 DSC 2241. That
motion was denied on March 16, 2020, by Judge James M. Moody, Jr • 9 U.S. District
Court, Eastern District of Arkansas, Central Division. That petition was also
denied on procedural grounds. The court did not address the issues. If the con­
tinuous efforts to be heard appear to be made in desperation - they are; the
Petitioner has steadfastly maintained his Innocence. In a declaration made
November 6, 2009, Virgil Lee Jackson stated that, "I did not conspire with Glen
lGlen Thomas Dotson] to murder Mr. Cox". Jackson went on to declare, "Glen did not
give, transfer, sell or loan me a firearm at any time."
ARGUMENT
"The fundamental requisite of due process of law is the oppor­
tunity to be heard." GranniB v. Ordean, 234 O.S. 385, 394, 58
L.ed 1363 (1914).” Dusenberry v. Dnited States, 534 D.S. 161,
173, 151 L.ed. 2d 597, 122 S.C7.694 (2002), dissenting opinion,
J.J. Ginsberg, Stevens, Souter, and Breyer.

(2)

Case: 4:19-cv-00828-JM

Document #: 22-0

Date Filed: 04/08/2020

Page 4 of 17

The Supreme Court has declared that we can rely on our government to
protect our rights.

"The very essence of civil liberty certainly consists in

( * i

the right of every individual to claim this protection
of the laws, whenever he receives an injury. One of the
first duties of'government is to afford that protection."
Marbury v. Madison, 1 cranch 137, 163, 2 L.ed60 (1803).

The court has denied the Petitioner an opportunity to be heard on the
issues. The Supreme Court has taken a different view of procedural denials.
"When the district court denies a habeas petition on
procedural grounds without reaching the prisoner's
underlying constitutional claim, a COA should issue
(and an appeal of the district court's order may be
taken) if the prisoner shows, at least that jurists
of reason would find it debatable whether the petit­
ioner states a valid claim of the denial of a consti­
tutional right, and that jurists of reason would find
it debatable whether the district court was errant in
its procedural ruling."

Slack v. McDaniel, 529 US 473,

holding, 120 S.CT. 1595, 146 L.ed 2d 542 (2000).

At this point, Petitioner advises the court that due to current Corona
Virus safeguards taken by the Springfield Medical Center, he has no access to
the Law Library nor to a copy machine. Therefore, the court is respectfully
requested to access the documents mentioned herein from the court records. The
trial transcript is cited by TR for transcript, the volume number as it appears
on record in Roman numerals, the page number and the line or line numbers, ,8.G.
TR-IV, 1:14.

.bM}
(3)

Case: 4:19-cv-00828-JM

Document #: 22-0

Date Filed: 04/08/2020

Page 5 of 17

The government'8 case against the Petitioner depended on proving that the
Petitioner sold a very old revolver to Virgil Lee Jackson so Jackson could kill
one Gerald Cox. Government witness Gregory Stump was important in proving that
he had owned and sold that revolver to the Petitioner. TR-IV, 105:8—25; TR-IV,
118:9-20). Stump claimed he sold that gun to the Petitioner for one-hundred
dollars (TR-IV, 118:18-19). Prior to trial, however, witness Stump told Special
Agent Heitzler he did not sell a gun to the Petitioner. (TR—IV, 153:1-25). On that
same page at TR-IV, 153:10-14, the prosecutor, Mr. Hoag, values the testimony
of this witness so much that he questioned the accuracy of his important govern­
ment witness Special Agent Heitzler. (TR-IV, 153:10-14). Thus, this witness,
Gregory Stump, was extremely Important to the government's case against the
Petitioner.
The following quotations are handwritten here as they appear in the trial
transcript for reasons aforesaid, the colloquy is during the direct examination
of witness Gregory Stump; it details the outright fabrication of testimony against
the.Petitioner and the prosecutor's knowledge that it was untrue.
The prosecutor, knowing the witness was lying, argued to back him up. This
entire event is pure fiction, it is proved by the fact that the Petitioner never
appeared before the Grand Jury. The AUSA, Mr. Hoag, knew, or should have known who
was before the Grand Jury in this case. It is illogical that the prosecutor would
not have that knowledge. Of course, knowledge of all the prosecutors relevant to
a particular case is Imputed to the prosecutor. GIGLI0 v. United States, 405 US
150, 154, 92 S. CT. 763, 31 L. Ed. 2d 104 (1972). The truth is that the Petitioner
could not have addressed Stump as he entered the Grand Jury room or exited from
because he did not appear before it.
From the transcript: By Prosecutor Dean R. Hoag, ESQ.
Q. Okay, now did you ever have occasion then to run into Mr. Dotson in the
courthouse?
A. Yes.
Q. When was that approximately?
A. That was when I had to testify in front of the Grand Jury.
Q. All right. And when you saw him, what if anything did the defendant
say to you?

(4)

Case: 4:19-cv-00828-JM

Document #: 22-0

Date Filed: 04/08/2020

Page 6 of 17

A. The first time he looked at me, he asked what was I doing here.
Q. Okay.
A. And then the second time was when he come out from the Grand Jury and
he looked at me and he said, I didn't tell them a thing.
Q. All right.

Mr. Jenkins: Judge may we approach?
The Court: Certainly.

(T*t -Jlt f

* 17 ~ 7K-j£,.y'■**>'

(A bench conference was held on the record and outside of the hearing of
the jury as follows:

Mr. Jenkins: I need to ask for a mistrial. That's a direct reference to
my client's failure to testify in this case before the Grand Jury. It's the first
time I've ever heard it. It's not in any of his reports, and it is a direct com­
ment by this gentleman on this client, my client, failing to testify in front
of a Grand Jury in this case. I want a mistrial, sir.

Mr. Hoag: It's not a statement that is made in custodial. It's not an officer
testifying about it. It is a witness that he attempted to intimidate, and I think
it's consciousness of guilt, and it's admissible for that.

Mr. Jenkins: It is this witness—he didn't intimidate this witness in
any way. He asked what he was doing there, and he said he didn't testify. It's a
direct comment by this witness as to my client taking the fifth before the Grand
Jury.

Mr. Hoag: It’s not a comment on him. It's him making the statement.
The defendant made the statement. He didn't comment that he didn't testify. The
defendant made the statement that he didn't say a word.

{
(5)

Case: 4:19-cv-00828-JM

Document #: 22-0

Date Filed: 04/08/2020

Page 7 of 17

Mr. Jenkins: He is testifying my client took the fifth in front
of the Grand Jury. In essence, he said he didn't testify.

Mr. Hoag: No, he said he didn't tell them a thing. That's not true.
Mr. Jenkins: That's the same thing.

Mr. Hoag: No, it's not, it's not. "I didn't tell them a thing" is cons­
ciousness of guilt. "I didn't testify," that is absolutely true, I
would say that, but I know he did testify.

Mr. Jenkins: This jury doesn't know the difference between those two things.

The Court: The defendant's request for a mistrial will be denied....
(TR-IV 125:17 through TR-1V, 127:20), see affidavit.

The problem is compounded by the fact that (I) the Petitioner did not
appear before the Grand Jury, it was a lie; (2) the jury may have been influenced
by the false exchange, witness Stump created.

"In United States v. Tierney, 947 F.2d 854, 860-61 (8th Cir. 1991),
we noted that when a court finds that the government knowingly,
recklessly, or negligently used false testimony, the agurs "any likeli­
hood" standard applies. More recently, we have stated that before we can
apply this relaxed standard, the defendant must establish that (1) the
testimony was in fact perjured, and (2) the prosecuting officers knew,
or should have known, of the perjury at the time the testimony was pre­
sented. English, 998 F.2d at 111." United States v. Duke, 50 f. 3d 571,
577 (8th Cir. 1994). [English v. United States, 998 F.2d 609, 611 (8th
Cir. 1993).]

In the Petitioner's case it is a simple matter to meet requirements (1) and
(2) in the Duke case.

(6)

Case: 4:19-cv-00828-JM

Document #: 22-0

Date Filed: 04/08/2020

Page 8 of 17

Whether or not the petitioner appeared before the Grand Jury can easily be
determined from Grand Jury records or from the U.S. Attorney's records. They sure­
ly know who was called before the Grand Jury because the witnesses are summoned
by the U.S. Attorney or assistant U.S. Attorney; it is he who brings a case to the
Grand Jury.
Attorney Hoag surely knew who appeared, when, and why, when he began to assemble
his case. He cannot now play ostrich and claim he was unaware that the Petitioner
did not get summoned before the Grand Jury. Mr. Hoag, nevertheless, argued vigorous­
ly to avoid a mistrial.

"The prosecutor's office is an entity, and as such it is the spokesman
for the government. A promise made by one attorney must be attributed,
for these purposes, to the government. See restatement (second) of
agency 5272. See also American Bar Association Project on Standards for
Criminal Justice, Discovery Procedure Before Trial 52.1(d). To the extent
this places a burden on the large prosecution offices, procedures and
regulations can be established to carry that burden and to insure communication of all relevant information on each case to every lawyer who
deals with it." Giglio v. United States, 405 U.S. 150, 154, 92 S.Ct. 763,
31 L. Ed 2d 104 (1972).

The transcript indicates that Defense Counsel Jenkins was not aware that
the Petitioner did not appear before the Grand Jury. He would have relied upon in­
formation provided to him by the government before trial. (TR-IV, 126:11-17).

"if, following the government's own logic, defense counsel acted
reasonably in relying on the thoroughness of its background check
without making further independent inquiry, we think it is reason­
able for this court to conclude that the prosecution should have
known of the falsity of Chamber's testimony. Thus we hold that the
standard for knowing, reckless, or negligent use of perjury should
apply to the question of whether Duke is entitled to post-conviction
relief." Duke, Supra, 50F.3d at 578.

(7)

L

Case: 4:19-cv-00828-JM

Document #: 22-0

Date Filed: 04/08/2020

Page 9 of 17

Prosecutor Hoag, himself, has described the serious Impact witness Stump's
false testimony may have had on the jury. He analyzed the damage on record. His
response, that includes the damaging statement, to Mr. Jenkins' move for a mis­
trial, was:
Mr. Hoag: No, it's not. "I didn't tell them a thing" is consciousness
of guilt, "i didn't testify", that is absolutely, I would
say that, but I know he did testify.
(TR-IV, 127: 12-15)
Witness Stump testified, falsely, that the Petitioner came out of the Grand
Jury and he said:
A. And then the second time was when he come out from the
Grand Jury and he looked at me and he said, 1 didn't
tell them a thing.
(TR-IV, 126:3-5)(SBE Petitioner's Affidavit)
That statement is the one Prosecutor Hoag argued as "Consciousness of Guilt."
((TR-IV, 127:3). The prosecutor argued that he knew, himself, that the Petitioner
testified. (TR-IV, 127:4—5). Mr. Hoag argued, "...and I think it's consciousness
of guilt, and it's admissible for that." (TR-IV, 126:20-21).
The government considered Stump's testimony important, inferring that his
testimony alone proved their case. In his closing argument, Prosecutor Hoag empha­
sized the significance of Stump's testimony.
"...Folks, you've got more than enough evidence to
convict him. You've got more than enough evidence
just based on Stump's testimony alone and the
phone records that corroborate it. But you've got
more."

(TR-X 71:1-4)
Stump's testimony was as important as the government considered witness
Taliento's deception in Gigllo, supra. ■

C8)

M)

Case: 4:19-cv-00828-JM

Document #: 22-0

Date Filed: 04/08/2020

Page 10 of 17

Stump's false testimony was damaging to the defense. The government was aware
of that and argued vigorously ante, to protect his lies.
"We begin with the government's fundamental Interest In
criminal prosecution: "Not that It shall win a case,
but that justice shall be done." Berger v. United
States, 295 US 78, 88, 79 L. Ed 1314, 55 S.CT. 629
(1935). See United States v. Agurs, 427 US 97, 111,
49 L. Ed. 2d 342, 91 S.CT. 2392 (1976). Although the
prosecutor must prosecute with earnestness and vigor
and "may strike hard blows, he is not at liberty to
strike foul ones." Smith v. Groose, 205 F. 3d 1045,
1049 (8th Clr. 1999).
The Supreme Court said it well in Napue v. Illinois:
"A lie is a lie, no matter what its subject, and if
it is in any way relevant to the case, the District
Attorney has the responsibility and duty to correct
what he knows to be false and elicit the truth...".
Napue v. Illinois, 360 US 264, 269-270, 3 L.Ed. 2d
1217, 79 S.CT. 1173 (1959).
The Sixth Amendment promises a defendant a fair trial. The Petitioner was
deprived of that. There can be little doubt that Stump's lie that he told the
jury concerning the fictitious appearance of Petitioner before the Grand Jury,
and the fabricated statement he attributed to the Petitioner, tainted the entire
case by implanting in the minds of the jury the idea of "consciousness of guilt."
The testimony of Witness Stump on other matters showed his propensity to
lie. See cross examination by Counsel Jenkins which begins at TR-IV, 130. The
jury heard that cross examination of Stump and, of course, they had the oppor­
tunity to judge his credibility for themselves, but there was no challenge to
the truthfulness of Stump's false testimony about the fictional Grand Jury
appearance of the Petitioner, and there was no challenge of the false state­
ment he attributed. Why? Judge Autrey denied counsel's request for a mistrial.

(9)

/

Case: 4:19-cv-00828-JM

Document #: 22-0

Date Filed: 04/08/2020

Page 11 of 17

The judge approved the use of the false statement (he did not know It was false),
see Tr-IV, 127:19- TR-IV, 128:1-6. Thus It is understandable that he did as he did.
Of course, the jury heard the statement "I didn't tell them a thing." The
Petitioner agrees with the prosecutor that the statement conveys the impression
of "consciousness of guilt." It can hardly be argued that Stump's lies were
harmless. The prosecutor's own words confirm that.
The Petitioner was denied due process of law, both by the witness testimony
and the prosecutor's failure to act. In Alcorta v. Texas, the court reversed in
a murder case because the government concealed the fact that the defendant's wife
was observed kissing a man. Here, when the statement was challenged, the
prosecutor argued to support the lies. The record tells it all.
"Under the general principles laid down by this court
in Mooney v. Holohan, 294 US 103, 79 L.Ed. 799, 55
S.CT. 340, 98 ALR 406 and

Pyle v. Kansas, 317 US 213,

37 L. Ed. 214, 63 S.CT. 177, Petitioner was not accorded
due process of law." Alcorta v. Texas, 355 US 28, 31, 2
L. Ed. 2d9, 78 S.CT. 103 (1957).
The Constitutional issues raised herein are serious violations of due
process of law; this court can address them.
"The language of Congress, the history of the writ, the
decisions of this court, all make clear that the Power
of Inquiry on Federal habeas corpus is plenary. There­
fore, where an applicant for a writ of habeas corpus
alleges facts, which, if proved would entitle him to
f

relief, the Federal Court to which the application is
made has the power to receive evidence and try the facts
anew. Townsend v. Sain, 372 US 293, 312, 9 L. Ed. 2d 770,
83 S.CT. 745 (1963).
The Improprieties set forth above deserve the scrutiny of an impartial
court. The Supreme Court has repeatedly said that the government must be

(10)

Case: 4:19-cv-00828-JM

Document #: 22-0

Date Filed: 04/08/2020

Page 12 of 17

accountable to the judiciary for the loss of liberty of an imprisoned individual.
It has never retreated from that position. See Fay v. Noia, 372 US 391, 83 S.CT.
822, 9 L.Ed. 2d 837; Townsend v. Sain, Supra; Stutson v. United States, 516 US
193, 196, 116 S.CT. 600, 133 L.Ed. 3d 571 (1996); Holland v. Florida, 560 US
631, 130 S.CT. 2549, 177 L.Ed. 2d 130 (2010).
"Its root principle is that in a civilized society,
government must always be accountable to the judiciary
for a man's Imprisonment: if the imprisonment cannot be
shown to conform with the fundamental requirements of
law, the individual is entitled to his immediate re­
lease. There is nothing novel in the fact that today
habeas corpus in the Federal Courts provides a mode
for the redress of denials of due process of law.
Vindication of due process is precisely its historic
office." Fay v. Noia, 372 US 391, 402, 83 S.CT. 822,
9 L. Ed. 2d 837 (1963).

i

Due to circumstances cited, ante, the Petitioner is not able to provide
this court with copies of court orders, the amended judgment, or previous

:

petitions, however, since they were duly filed with the clerks of the District
Court, those documents out to be readily available to the Court electronically.
The Petitioner respectfully Incorporates those documents into this petition as
though they were submitted herewith.
Some information is not accessible to the Petitioner. One request to the
Clerk of the District is pending. On March 24, 2020, Judge Autrey intervened
to prevent the clerk from providing Petitioner wit a copy of the August 23, 2007,
superseding Indictment despite the fact that Petitioner is willing to pay for it.
The Petitioner, with all due respect, represents that he has presented
a sound argument for the Court's close examination of the allegations set out,
herein.

3

K

i

&

(11)

s

Case: 4:19-cv-00828-JM

Document #: 22-0

Date Filed: 04/08/2020

Page 13 of 17

Wherefore the Petitioner prays that the Court issue a certificate of appealability so he may be heard on the merits of those allegations, ante, in the event
the Court sends the case to the District Court with instructions, the Petitioner
respectfully requests that the case be assigned to a judge other than Trial Judge
Autrey who would have to judge certain of his own actions.
on April 3 , 2020

Further more, Petitioner prays not.
Respectfully Submitted

Glen Thomas Dotson, Petitioner

April 3 , 2020
Glen Thomas Dotson
33121-044
Medical Center for Federal Prisoners
P.0. Box 4000
Springfield, M0

65801-4000

(12)

Additional material
from this filing is
available in the
Clerk's Office.

